<html>
<title> - NOMINATION OF HOWARD C. WEIZMANN</title>
<body><pre>[Senate Hearing 110-74]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 110-74
 
                    NOMINATION OF HOWARD C. WEIZMANN

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                                 ON THE

NOMINATION OF HOWARD C. WEIZMANN TO BE DEPUTY DIRECTOR, U.S. OFFICE OF 
                          PERSONNEL MANAGEMENT


                               __________

                              MAY 1, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
35-530                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE MCCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                  Kristine V. Lam, Research Assistant
          Jennifer L. Tyree, Counsel, Oversight of Government
    Management, the Federal Workforce, and the District of Columbia 
                              Subcommittee
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
              Jennifer L. Tarr, Minority Associate Counsel
    Theresa Prych, Minority Professional Staff Member, Oversight of 
                               Government
    Management, the Federal Workforce, and the District of Columbia 
                              Subcommittee
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Voinovich............................................     3

                                WITNESS
                          Tuesday, May 1, 2007

Howard C. Weizmann to be Deputy Director, U.S. Office of 
  Personnel Management:
    Testimony....................................................     5
    Prepared statement...........................................    17
    Biographical and professional information....................    21
    Letter from U.S. Office of Government Ethics.................    29
    Responses to pre-hearing questions...........................    30
    Responses to post-hearing questions..........................    53


                    NOMINATION OF HOWARD C. WEIZMANN

                              ----------                              


                          TUESDAY, MAY 1, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:38 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
presiding.
    Present: Senators Akaka and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The hearing will come to order. I want to 
say good morning to all of you, family and friends as well.
    Today, the Committee on Homeland Security and Governmental 
Affairs meets to consider the pending nomination of Howard 
Weizmann to be Deputy Director of the Office of Personnel 
Management.
    Mr. Weizmann is a native of Ohio and a graduate of Ohio 
University and the University of Michigan. He also earned a law 
degree from Georgetown University. Mr. Weizmann is a former 
executive of Watson Wyatt, a global consulting firm focusing on 
human capital and management issues. He currently heads the 
Private Sector Council at the Partnership for Public Service, 
which brings leaders from America's top companies together with 
Federal decisionmakers to improve the management, efficiency, 
and productivity of Federal agencies.
    I want to welcome you, Mr. Weizmann, and your family and to 
congratulate you on your nomination. I know your family is 
here, for the record and for those who are present, may I ask 
you to introduce your family.
    Mr. Weizmann. Thank you, Mr. Chairman. This is my lovely 
wife of 37 years, Jane Weizmann. This is my soon-to-be son-in-
law, Ernest Voyard, my daughter, Brooke Weizmann, and my 
daughter, Haley Weizmann, and they are delighted to be here, I 
can assure you.
    Senator Akaka. Thank you so much, and welcome to your 
family here.
    I believe each of us is here today because we care a great 
deal about improving the strength of the Federal workforce and 
supporting its ability to meet the various missions of all 
agencies. If confirmed, you will be central to carrying out 
Director Springer's operational plan and ensuring 
implementation of human capital strategies throughout the 
Federal Government.
    Senator Voinovich and I have dedicated a considerable 
amount of time to addressing the human capital challenges in 
the Federal workforce, and I would tell you that I consider 
Senator Voinovich as a leader in that respect. We have listened 
to the needs and concerns of employee and management groups. We 
have heard the Administration's requests to provide greater 
workforce flexibilities to agencies and their proposals to 
carry out the largest civil service reform effort in more than 
25 years.
    If confirmed, your role with OPM is, no question, vital to 
the success of all of our collective efforts. The Federal 
Government is at a pivotal time in its history. Not since the 
Civil Service Reform Act of 1978 has its workforce undergone so 
many fundamental reforms. The new personnel systems underway at 
the Department of Defense and the Department of Homeland 
Security have struggled to get off the ground. Federal courts 
have questioned the fairness of the appeals system at both 
agencies and have enjoined each agency's regulations relating 
to collective bargaining.
    Furthermore, both DHS and DOD, in addition to the Senior 
Executive Service, are implementing new pay-for-performance 
systems. My concerns with pay-for-performance are well known. 
As agencies continue to face diminished budgets that impact 
employee training and incentive programs, I fail to see how 
agencies will be able to properly train managers and employees 
on how to measure performance and make meaningful distinctions 
in performance, nor do I see how they will guarantee sufficient 
funds for performance bonuses or pay increases. Without strong 
training, there are no guarantees that employees will have fair 
and transparent appraisal systems. We need to get these systems 
right before we can move forward with broad sweeping reforms at 
other agencies.
    Another issue facing the Federal Government is the fact 
that a generation of talented, knowledgeable, and dedicated 
civil servants is on the brink of retirement. A wave of new 
employees with similar aspirations but new expectations is 
ready to take on the call to service. The upcoming generation 
may not expect to work in the Federal Government for their 
entire career. It is the responsibility of OPM to help agencies 
implement management flexibilities and create an attractive 
work environment.
    One reason I feel so strongly about this is that Senator 
Voinovich and I have successfully moved forward a number of 
significant workforce flexibilities. Unfortunately, as the 
Government Accountability Office recently reported, the use of 
these flexibilities by agencies is uneven. It will be up to you 
and Director Springer to help agencies find the ways of best 
utilizing these tools.
    I am sure your many years of private sector experience will 
enhance our public sector management, and I am encouraged by 
your strong commitment to address the human capital challenges 
within the Federal workforce. The Federal Government is 1.8 
million employees strong. In this role, you will be responsible 
for their rights, their paychecks, and their effectiveness as a 
workforce.
    I look forward to working with you and hope that we can 
work together to address the challenges of the modern Federal 
workforce.
    Before I call on my good friend and partner on human 
capital issues, Senator Voinovich, for his statement, I just 
want to note that Senator Voinovich has been, and I repeat it 
again, a leader in these issues. I know that he is very 
interested in the work of OPM and your views on how to make the 
Federal Government an employer--and he likes to use this--an 
employer of choice. Senator Voinovich.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. Thank you, Senator Akaka. I really 
appreciate being a part of this hearing. As you know, the two 
of us have worked for a long time on oversight of the Office of 
Personnel Management and have been somewhat inspired by the 
fact that Linda Springer seems to be doing some of the things 
that we would like her to focus on. We do know that she needs 
help.
    Mr. Weizmann, thank you very much for your willingness to 
step forward at the end of an administration. I am interested 
in learning why you decided to step down from a private sector 
job to work for the government. Maybe you watched and said, 
instead of continuing to just watch, maybe I can go over there 
and help Linda Springer. It will be interesting to hear your 
testimony.
    I want to thank your family for the sacrifices that you are 
going to make and the hours that you are going to put in, 
particularly since I know that Linda is going to not wind down, 
but wind up.
    Again, I want to thank you for your interest in public 
service. Next week is Public Service Recognition Week, and I 
hope, Mr. Chairman, we can move the nomination along 
expeditiously so Mr. Weizmann can celebrate being part of the 
team.
    I think you know that the Federal workforce has an 
increasing number of employees eligible to retire. As Senator 
Akaka has mentioned, we are implementing the new performance 
management and pay systems for the Senior Executive Service. 
Although we have had some testimony that it has been uneven, I 
will say, Senator Akaka, that the Defense Department's 
conversion of employees to NSPS has been good to date.
    I have now visited several bases in Ohio to discuss NSPS, 
and the feedback is that it is very well received because of 
the training provided to employees. We are hoping we can get a 
report back from OPM on some of the unevenness that we have 
observed with the implementation of the new personnel system 
for the Senior Executive Service. We would like to get those 
wrinkles ironed out because if we don't, I am worried the SES 
system will cast a bad reflection on what we are trying to get 
done.
    Mr. Weizmann, OPM ought to be the model for the rest of the 
government in terms of human resources and personnel practices. 
The Director has worked closely with this Committee and has 
demonstrated her commitment to leading the agency through 
transformation. OPM has been working with GAO on a series of 
reports to identify OPM's management challenges. OPM has also 
involved its employees and stakeholders in publishing a 
strategic plan with precise goals and target completion dates. 
Director Springer is very proud of the strategic plan, and I 
have been given the strong impression from the people that 
Director Springer works with that the plan was developed by 
them, not something that Director Springer did on her own, 
which I think is real important.
    Mr. Weizmann, I am impressed with your background. You are 
a Bobcat, and my gosh, I have got to be for you. The Bobcat is 
Ohio University's mascot. [Laughter.]
    Mr. Weizmann, we are very happy to have you here today and 
appreciate also your participation and your extracurricular 
activities, particularly your leadership in your synagogue.
    [The prepared statement of Senator Voinovich follows:]

                PREPARED STATEMENT OF SENATOR VOINOVICH

    Good morning, and thank you Mr. Chairman. It is a pleasure to be 
here today to hear the testimony from Howard Weizmann, the President's 
nominee for Deputy Director of the Office of Personnel Management.
    Mr. Weizmann, congratulations on your decision to join the 
honorable profession of public service. As we all know, next week is 
Public Service Recognition Week. I hope we can move your nomination 
expeditiously so you can be part of this select group of Americans 
during next week's celebrations.
    The Federal civil service is in the process of a significant 
transition. We all know too well that the majority of the civil service 
soon will be eligible to retire. This will leave the government with a 
considerable knowledge gap within agencies and poses an immense 
succession planning challenge. In addition, agencies are implementing 
new performance management and pay for performance systems for the 
Senior Executive Service. The Department of Homeland Security and 
Department of Defense are designing new personnel systems to meet their 
national security missions.
    OPM has a vital role to play in ensuring agencies are making 
strategic human capital management a priority. In addition, OPM has an 
important operational responsibility to work with Federal departments 
and agencies to ensure reforms of performance management systems 
provide employees a fair and transparent system, with meaningful 
opportunities to enhance communication and improve individual 
performance. These strategic human capital management challenges also 
exist for OPM itself. As OPM's role in the Federal Government continues 
to evolve, its workforce must be structured to tackle these challenges.
    OPM Director Linda Springer has worked closely with this Committee 
and has demonstrated her commitment to leading the agency through the 
transformation. For example, OPM has been working with the Government 
Accountability Office on a series of reports to identify the management 
challenges within OPM itself. OPM also has involved its employees and 
stakeholders in publishing a strategic plan with precise goals and 
target completion dates.
    Mr. Weizmann, I believe your background, including your experience 
in human resources, would be a great asset to OPM as it prepares for 
the challenges that lie ahead.
    Thank you Mr. Chairman.

    Mr. Weizmann. I am delighted to be here, and I thank you.
    Senator Akaka. Thank you, Senator Voinovich.
    Mr. Weizmann has filed responses to biographical and 
financial questionnaires, answered pre-hearing questions 
submitted by the Committee, and had his financial statements 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made a part of the hearing record, 
with the exception of the financial data. They are on file and 
available for public inspection at the Committee offices.
    Our Committee, Mr. Weizmann, has rules that require that 
all witnesses at nomination hearings give their testimony under 
oath, and so I ask you to rise and take the oath. Please raise 
your right hand.
    Do you solemnly swear that the testimony you are about to 
give this Committee is the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Weizmann. I do.
    Senator Akaka. Thank you very much. Mr. Weizmann, you may 
proceed with your statement.

TESTIMONY OF HOWARD C. WEIZMANN, NOMINEE TO BE DEPUTY DIRECTOR, 
              U.S. OFFICE OF PERSONNEL MANAGEMENT

    Mr. Weizmann. Mr. Chairman, thank you. I want to thank you 
and Ranking Member Voinovich and the Committee for holding 
today's hearing. I also want to thank the Committee staff for 
the courteous and professional manner with which I have been 
treated throughout this process. I want to thank President Bush 
for the honor of being nominated as Deputy Director of the 
Office of Personnel Management. Finally, I want to thank OPM 
Director Linda Springer for her support throughout this 
process.
    As noted, one does not have to be an expert to recognize 
that demographic trends will dramatically change the face of 
the Federal workforce. It is no longer news that the Federal 
Government faces a massive challenge as increasing numbers of 
older, experienced employees become eligible to retire or leave 
over the next few years. There is also a widespread belief that 
in the near future, there will be a lack of skilled workers 
affecting both the private and public sector. In sum, the 
demand for qualified workers is likely to exceed the supply.
    In this emerging world, Federal employers will have to 
effectively compete for talent with the private sector. To do 
so, we need to change widely held perceptions about Federal 
employment. Surveys indicate that college-age individuals 
believe that the private sector offers greater opportunity than 
Federal employment. Private industry also inherently possesses 
more flexibility than government to structure positions or to 
employ foreign nationals, avenues generally limited or closed 
to Federal employers.
    But crises also present opportunities, and those are the 
ones that really do excite me. The talent crunch creates a 
burning platform for forcing Federal employers to establish new 
career options for existing employees, new ways to recruit 
prospective employees, and new challenges to existing ways of 
doing things. This Committee has helped by creating hiring 
flexibilities that fast-track certain potential employees or 
that provide tools, such as educational loan relief, to attract 
talented workers.
    As President of the Private Sector Council, part of the 
Partnership for Public Service, my organization worked closely 
with OPM to develop OPM's online hiring tool kit, which 
highlights ways to raise the effectiveness of the Federal 
recruiting process. I know OPM has also suggested that agencies 
use a 45-day target benchmark, measured from the closing date 
of the announcement to the date the offer is formally made, to 
speed up the process.
    The challenge is not to fill empty seats with people, but 
to fill those seats with the right people. If confirmed in this 
position, I will work with Director Springer, OPM staff, and 
this Committee to help address the difficult issue of how to 
attract and retain Federal talent. I will do my best to support 
the new career patterns initiative, which may help to create 
more flexible work environments, appealing to workers at 
different career stages. I am also looking forward to exploring 
other ways to address the looming talent shortfall.
    The future Federal workforce will be a mosaic of different 
generations and work arrangements. Experts tell us that younger 
workers entering Federal service will be better educated, with 
more diverse backgrounds than in the past. They will be used to 
instant communication and impatient with people who refuse to 
adapt. They will be optimistic, hard working, and dedicated. 
They will be looking for opportunities to grow, but less likely 
to commit to a career with a single employer.
    Retaining experienced Federal employees and attracting 
recent Federal retirees will also be a priority. Enticing these 
workers will not only require interesting work and flexible 
schedules, but financial incentives and arrangements that do 
not penalize retirees returning to work.
    To address the future shortage of management and technical 
expertise, the Federal service will also need to rely on 
experienced knowledge workers, attracted to Federal employment 
from active or retired careers in the private sector. Skilled 
veterans are also another important source of future Federal 
employees.
    The new Federal manager will have to be skilled at managing 
this diversity. They need to be supervisors, leaders, mentors, 
referees, negotiators, and contract managers. In my view, these 
demands will require greater investment in the selection and 
training of future Federal leaders. We will need to use OPM's 
good offices, working with agency partners, to support efforts 
to enhance managerial skills.
    The Federal Government has also not been immune from the 
technological winds of today. I know that Director Springer is 
directly involved in supervising the automation of OPM's 
retirement system, using modern technology to improve the 
delivery of annuity payments to Federal retirees. The E-
Government initiative is another dramatic effort to improve 
government effectiveness through information management 
technology. The evolution to automated benefit administration, 
online training, E-payroll systems, and other initiatives are 
well on their way to increasing the efficiency of the Federal 
processes. If confirmed, I would look forward to helping 
Director Springer advance OPM's efforts in this regard.
    Everyone wants an effective, results-driven Federal 
service. In 1993, this Committee and Congress sought to 
underscore these expectations by passing the Government 
Performance and Results Act, or GPRA. The Act mandated, among 
other things, a new focus on results, service quality and 
delivery, and customer satisfaction in the achievement of 
program objectives. The President's Management Agenda and the 
Program Assessment Review Tool have taken GPRA a step further 
by establishing the means to measure progress in a number of 
critical areas consistent with the Act. I believe that OPM 
takes this responsibility under the PMA Strategic Management of 
Human Capital component seriously and that OPM monitoring of 
agency performance can and has made a real difference in 
helping agencies improve their human capital management 
capabilities.
    I believe Director Springer has also gone a long way toward 
enhancing opportunities for agency coordination through her 
recent reorganization of the Chief Human Capital Officers 
Council. I look forward to learning more about OPM's and other 
agencies' efforts.
    Establishing metrics to measure results, while a necessary 
step, is not sufficient to ensure effectiveness. The challenge 
is to use these measures to focus agency efforts to create 
program success. Performance-based pay initiatives directly 
support this cultural shift. As Director Springer has 
previously noted, performance-based pay is not a particularly 
new idea. The private sector has successfully administered such 
systems for years.
    I am also aware that OPM has identified more than 90,000 
Federal employees, not including those covered by the DHS and 
DOD legislation we referred to earlier, as being covered 
currently by some form of performance-based pay system. Some of 
these programs date from as early as 1980 and are generally 
regarded favorably by a wide variety of employees. I believe 
that OPM has worked hard to promote and refine performance-
based initiatives. If confirmed, I look forward to being of 
whatever assistance I can to support these efforts.
    In the end, we cannot forget that when we talk about the 
Federal workforce, we are really talking about people. While 
attitudes may have changed, some things remain constant. People 
everywhere respond to incentives and recognition. People fear 
the uncertainties of change and value employers who meet their 
needs for income and benefit security. To ensure an effective 
civilian workforce requires addressing these attributes. OPM 
needs to support agency efforts to reward employees for their 
contributions to agency success. We should encourage efforts to 
communicate the reasons for and the impact of change and to 
help those who are affected by it.
    In addition, OPM has direct responsibility to ensure that 
Federal benefits address the needs of Federal employees at a 
reasonable price. I recognize that your support is also 
critical to ensuring the effectiveness of these efforts.
    In preparing my comments, I looked up synonyms for the word 
``deputy.'' I found that a deputy is an assistant, a 
representative, a surrogate, an agent, an emissary, and an 
envoy. As Deputy Director, it would be my job to act in many or 
all of these capacities to help Director Springer achieve the 
ambitious goals she has set for OPM.
    I am also aware that, if confirmed, the relatively short 
time horizon alloted to me will not be sufficient to 
substantively address all the issues raised by the currents 
shaping the future Federal workforce. My more modest aim would 
be to work with Director Springer to identify areas where my 
experience would be helpful. My goal is to help the 
Administration make a lasting contribution toward advancing 
solutions to some or perhaps many of these issues.
    If confirmed, you have my promise that I will be open, 
honest, and direct in dealing with this Committee specifically 
and the Congress in general. I will use my best efforts to work 
with all interested parties to craft useful solutions to the 
complicated issues of the day. I believe we all want the same 
thing, an effective, results-driven workforce populated by 
talented individuals who are proud to be called Federal 
employees.
    Mr. Chairman, I look forward to any questions you or other 
members of the Committee may have. Thank you.
    Senator Akaka. Thank you very much, Mr. Weizmann, for your 
statement.
    Let me begin by asking you some standard questions of the 
Committee. First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Weizmann. As I mentioned to the Committee staff and I 
have answered in the written questions, as well, my wife, who 
is sitting to my right, does do work for the Federal Government 
and has in the past done work for OPM. I have signed an ethics 
agreement which has precluded certainly her working for OPM or 
directly communicating with OPM. At the same time, I have also 
agreed to recuse myself from any decisions involving Watson 
Wyatt while I am at OPM, where I used to work.
    Senator Akaka. The second question is do you know of 
anything, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated?
    Mr. Weizmann. No, I do not, sir.
    Senator Akaka. Third, do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Weizmann. Yes, Mr. Chairman.
    Senator Akaka. Thank you very much for your responses.
    As you know, Mr. Weizmann, the previous OPM Deputy Director 
was charged with overseeing the Combined Federal Campaign and 
conducting outreach with veterans' service organizations. Have 
you and Director Springer discussed whether you will play a 
similar role at OPM, and if so, what are your goals in this 
area?
    Mr. Weizmann. Mr. Chairman, Director Springer and I had a 
conversation in which I generally offered to fulfill the same 
duties that the former Deputy Director was doing. At this 
point, I do not think we have finalized anything specifically. 
And, of course, these are programs that I believe in, as well, 
and I would make whatever effort I could to the best of my 
ability to support the success of these programs.
    Senator Akaka. Thank you. For years, Congress has been told 
of an impending retirement tsunami bearing down on the Federal 
Government. The potential loss of thousands of Federal 
employees over the next 5 to 7 years could have a major adverse 
impact on Federal programs. What is your assessment of the 
Federal Government's preparedness for this retirement wave and 
what recommendations do you have for improving Federal 
agencies' preparedness?
    Mr. Weizmann. Mr. Chairman, I can really only bring my 
experience in the private sector to bear and my observations 
from what I have read and certainly my service at the Private 
Sector Council in observing what is going on, and my knowledge 
is really, of necessity, limited in terms of the scope of 
agencies. I think there are--in my experience, or my 
understanding--some agencies better prepared than others, and 
yet I think there is a full recognition, at least from the 
Federal employers or the executives that I have spoken with, 
that there is an appreciation that, in particular areas, this 
is an issue.
    The good thing about this, I think, is that it is forcing 
all human resource professionals within the Federal service to 
recognize that efficiencies need to be established in hiring 
people and incentives better used to attract willing or 
interested potential employees.
    I noted in today's newspapers, for example, that the 
Federal Student Loan Repayment Program utilization among 
various Federal agencies has been, to date, increased 
significantly and been very successful in terms of attracting 
individuals to the Federal service. My understanding is that 
this Committee had a very instrumental hand in establishing 
that flexibility, in particular.
    Those kinds of efforts to fast-track employees into the 
Federal service, but also to identify employees who are the 
appropriate ones to come in, I think are really critical. 
People will retire. In every organization, it happens, whether 
it is in the private sector or public sector. It is what we do 
to address the future that is most important. By bringing in 
talented employees at all levels, some with more experience, 
some with very little experience, and grooming them and 
training them into the Federal service, I think we can address 
the tsunami about which you have spoken.
    Senator Akaka. OPM is promoting new career paths or 
initiatives in the Federal Government whereby Federal employees 
no longer work a 40-hour week or work for 20 years. Rather, 
efforts are focused on part-time or temporary work. What 
changes in the Federal Government's benefit package do you 
believe are needed to recruit individuals to work in these new 
career patterns?
    Mr. Weizmann. I do not know that I am in a position to tell 
you what changes need to be made because I am not yet very 
familiar with the benefit package of the Federal Government. In 
looking at survey responses, generally, the Federal Government 
fares very well when compared to private sector with regard to 
both retirement and health benefits. There are benefits within 
the Federal program that are what we refer to, in human 
resources terms, as security benefits, and those really go to 
the issue of health care and also retirement.
    Retirement benefits, depending on the kind of plan, may 
retain employees, but generally employees or potential 
employees do not come to an employer, in my experience, for the 
benefits. They come to be a part of an exciting organization 
with a dynamic mission. In some instances, it is pay that 
attracts them, but pay, I will tell you, is probably one of the 
over-rated issues, certainly among private industry in terms of 
attracting people.
    Overall, I would have to look at the benefit package to see 
if there is more that can be done or more that should be done 
in making that benefit package attractive to potential 
employees.
    Senator Akaka. Only last year, OPM had an initiative to 
have more flexible work arrangements and to make them more 
attractive. I think they have been working on that. Last year, 
OPM closed Hawaii's field office in Honolulu and also along 
with some other regional offices. I believe that having OPM's 
presence in a State with nearly 50,000 Federal employees and 
retirees is critical given its geographic location and also 
other Federal employees in the Pacific in addition to the 
50,000.
    For example, the President's proposal to replace a non-
foreign COLA with locality pay, I believe that an OPM presence 
could better respond to questions from employees throughout the 
State of Hawaii and the Pacific, which in turn allays concerns 
about the proposal.
    How do you propose for OPM to support the personnel needs 
of Hawaii Federal agencies when the nearest field office is 
2,500 miles away?
    Mr. Weizmann. Mr. Chairman, customer service, of course, is 
tremendously important. I am not really familiar specifically 
with the issues and the concerns that led to the closing of the 
office in Hawaii. However, I am eager to learn more should I be 
confirmed. I know this is an issue, Mr. Chairman, that is 
important to you, and as a result, it is something that I would 
be pleased to look at further.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. Thank you, Mr. Chairman.
    What caused you to decide to give up your responsibility as 
chairman of the Private Sector Council and come to work at OPM?
    Mr. Weizmann. At a very general level, I think the Federal 
Government is an exciting place to be, and one of the things I 
have come to appreciate at the Private Sector Council is the 
amount of good that can be done by the Federal Government in a 
way that the private sector can never match. So at a very 
general level, I was impressed, quite frankly, in working at 
the Private Sector Council, by the dedication and the 
intelligence of the Federal employees and the Federal 
executives with whom I worked.
    Senator Voinovich. Did Director Springer recruit you? 
[Laughter.]
    Mr. Weizmann. She knew I was interested in the directorship 
at one point, and she knew of my interest in that, and she 
ultimately was appointed as Director. White House personnel 
actually coordinated with her and called me to ask if I would 
be interested in this position.
    And to be honest with you, on a very personal level, one of 
the things that attracts me about this position at OPM is 
Director Springer. The comments that you made earlier, Senator, 
are very telling. I think she is a very good leader. I think 
she has done things that I think will lead ultimately to 
success and a much more effective agency. And I think it would 
be a great opportunity to work with her.
    At the same time, I have to say that I am coming to the end 
of my career, more or less. I may have another job after this, 
but my wife tells me not too many more.
    Senator Voinovich. That is what my wife has been telling me 
for the last---- [Laughter.]
    Senator Akaka's wife, I am sure, has been telling him the 
same thing, but here we are. [Laughter.]
    Mr. Weizmann. I have to tell you that I also do feel a 
sense of giving back. To the extent I have any expertise or 
have developed any experience that is useful to the Federal 
Government, I would like to do that. I would like to make a 
difference.
    Senator Voinovich. That is good. Have you talked to 
Director Springer about your role as Deputy Director and how 
she is going to take advantage of your talents to enhance her 
ability to get the job done?
    Mr. Weizmann. We have generally talked about the issues and 
about what she is dealing with. I certainly have read the 
strategic plan that she has put forth. There are areas in which 
I am interested, and I have expressed those areas of interest 
to her, and basically what we have agreed to, at least until 
the actual confirmation, rather than making specific 
assignments or addressing which areas I would go into, is to 
wait until after the confirmation.
    I will tell you the areas that do interest me have to do 
with workforce management. Both the planning, the recruiting, 
the hiring processes are of great interest to me. I have some 
expertise in the use of technology in the workplace and the 
kind of impact that has. I think I could perhaps lend some 
expertise in that area, as well. Those areas are ones that I 
mentioned to Director Springer, and we just have not made any 
final decisions as of yet.
    Senator Voinovich. How much help can and should the private 
sector give to a Federal agency? I know when I was mayor and 
governor, we used our Operations Improvement Task Force to 
bring the private sector in, asked them to spend time with 
people who had worked in the government for a long time, and 
get their best ideas on how we could improve. Have you given 
any thought to some of the management challenges that need to 
be addressed within our Federal Government and how you might be 
able to jump-start reform, or is there some reservation about 
having the private sector become involved? I am referring to 
pro bono assistance.
    Mr. Weizmann. Certainly. I understand. I think there are 
things that the Federal Government can learn from the private 
sector for instance, with recruitment. As a senior VP of HR at 
one organization, I spent a good deal of time on the recruiting 
effort and trying to identify talent and trying to retain 
talent during the dot-com era. I think there are useful 
approaches that could be adapted to the Federal Government.
    There are some things that are different. The number of 
stakeholders, for example, is much broader in the Federal 
Government and the number of people that you really do need to 
bring into the effort is much greater. As a consequence, I 
think things often take more time in the Federal Government 
than you would find in the private sector.
    Senator Voinovich. As governor of Ohio, I had Xerox come in 
to help establish Total Quality Management in State Government. 
I convinced McKinsey and Company to examine the Ohio Bureau of 
Workers' Compensation and come back with a pro bono 
recommendation on how it could be reformed. Are you able to do 
this, or are there laws that would make this a conflict of 
interest?
    Mr. Weizmann. My understanding is that, by law, I am not 
technically allowed to interact with the Private Sector Council 
for a year after my employment there because they are my former 
employer, technically. I do not know how substantial an 
impediment that really is.
    The short answer is yes, in two areas. Again, I think the 
private sector has developed a lot of expertise in the 
recruitment area. I also think one of the understated areas 
that needs to be at least focused on is the impact of 
technology on Federal processes. It is one thing to adopt a new 
retirement system. It is another thing to scope out how you get 
information to people, what your expectations of them are in 
terms of self-service. The same thing with enterprise-wide 
financial systems.
    There is a lot of expertise that I know personally where I 
could reach out to those folks. So from that standpoint, I 
think there is a lot the private sector has to offer. At the 
same time, the private sector folks are very skeptical about 
government, and the issues for government are different to some 
extent. But those issues really do coincide.
    Senator Voinovich. Will we have a second round?
    Senator Akaka. Yes, we will do a second round.
    Senator Voinovich. OK, good. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    Let me reach out and ask you about the Human Capital Survey 
of the Federal Government. In your pre-hearing questions for 
the Committee, you talked about the competitive environment for 
recruiting talented workers----
    Mr. Weizmann. Yes.
    Senator Akaka [continuing]. Specifically the need to 
recruit a diverse and talented workforce. What do you see as 
the government's biggest challenge to hiring diverse talent?
    Mr. Weizmann. There are a variety of levels, Mr. Chairman. 
One is the image of the Federal worker, I think, which really 
has suffered over the last 10 to 15 years. I am old enough to 
remember the John F. Kennedy years and the call to service that 
was placed on potential employees and remembering the sense of 
real dedication. Government at that time, I think, really did 
begin to focus on attracting the best and the brightest.
    That is not to say that we do not have in the Federal 
Government the best and the brightest today; it is just that 
the image, at least according to the surveys that I am aware of 
and also just anecdotally, of Federal employment is not what it 
ought to be. So at that level, there is an image issue.
    Beneath that level, there are very technical issues, which 
is that it takes too long to get people into Federal service at 
all levels, and I am not just talking about Presidential 
appointments, but at all levels, it takes, in many cases, way 
too long from the date that people first express an interest to 
the date they are actually made an offer to join the Federal 
service.
    I think there is also not enough marketing for a variety of 
really specialized talent that I think that could be obtained. 
For example, in the area of science or engineers or other kinds 
of professionals, what we call knowledge workers, I think the 
Federal Government in that instance, I think, does not do as 
good a job as I have seen in the private sector in terms of 
going to the best schools and attracting really talented 
people. People still come because they are interested in what 
the Federal Government does, and quite frankly, there is no 
other place in the world where you can have the scope of 
activities as a scientist or an engineer or even, quite 
frankly, as a manager.
    One curious statistic, I think, was a survey done by the 
Council for Excellence in Government which indicated that 
managers, people who are mid-career, who might, in fact, be 
attracted to the Federal service, by a very substantial margin 
are not attracted to Federal service, and I am curious as to 
why. But I think you, Senator Voinovich, and you, Mr. Chairman, 
have addressed quite eloquently the issue of the importance of 
having trained managers to supervise performance-based systems, 
and I think that is a critical need. So that is another 
talented population that I think that we should really focus on 
and try to get more talented managers into the Federal service.
    Senator Akaka. Before I move to a training question, I just 
want to say that in the Human Capital Survey of Federal 
Government, it shows that the African-Americans were low in 
SES, and also Hispanics, across the government. I raise that 
just as another part of this diverse kind of employees for the 
Federal Government that we need to pay attention to.
    As you may know, Mr. Weizmann, I recently introduced the 
Federal Supervisor Training Act, S. 967, on March 22, 2007, 
which is supported by the Federal employee unions, the 
Government Managers' Coalition, and the Partnership for Public 
Service. It is to require mandatory supervisor training for all 
managers on a recurring basis. In order to accomplish this, OPM 
will need to reach out to all agencies and provide them with 
the resources necessary to meet the training requirements.
    The question is, what steps do you think OPM needs to take 
to ensure supervisors are receiving proper training?
    Mr. Weizmann. Mr. Chairman, until I am confirmed, I do not 
know what specific steps I am prepared to recommend. I am also 
not directly familiar with the legislation that you introduced. 
Having said that, no performance management system anywhere can 
function without trained supervisory personnel who understand 
both the nuances of management and are able to address the 
issues I outlined in my statement. And so in general, I would 
think that any help that this Committee could do, or Congress, 
to support the whole effort around training would be quite 
useful.
    Having said that, should I be confirmed, I will look into 
those issues you have raised to see, in fact, what OPM's 
responsibilities would be under your proposed Act and what our 
relations are with the various agencies so that we can foster 
that kind of effort.
    Senator Akaka. As the nominee to be Deputy Director of OPM, 
I assume you saw the Partnership for Public Service 2007 
rankings----
    Mr. Weizmann. Yes, I did.
    Senator Akaka [continuing]. Of the best places to work in 
the Federal Government. In the 2007 rankings, OPM placed 25 out 
of 30 large agencies. In regard to training and development, 
OPM placed 28 out of 30. As OPM is to be a leader to human 
capital management, I am deeply concerned by these survey 
results. Do you have any idea why OPM ranked so low?
    Mr. Weizmann. Well, with regard to the first statistic that 
you quoted, I am also aware that if you take the populations of 
OPM that were in existence at the time that the survey was last 
done in 2004 as opposed to this 2006 survey, excluding the 
investigative services that moved over to OPM from DOD, it is 
my understanding that the improvement was actually better than 
any other agency referenced in the survey.
    That said, the second statistic you quote, and there are 
other statistics, I believe, in there concerning OPM, there are 
still issues to be addressed, not only the specific issue that 
you identified in terms of training and development, and that 
is clearly an area that I do believe in and I think is very 
important, but also to look at various segments of OPM and to 
see what the issues are that individuals have, whether it is 
uncertainty, whether it is a leadership issue, or whatever 
issues there might be and work to correct those.
    In my own experience, I have been with organizations that, 
when I have taken them over as a manager, morale was low or a 
variety of issues for a variety of reasons, and I have worked 
hard to address those and successfully, I think. One area was 
recognized. We were named one of the best places to work in 
Washington, for an organization of about 325 people when I was 
at Watson Wyatt. A lot of it had to do with structural issues. 
A lot of it had to do with leadership. I believe in Director 
Springer. I think that over time leadership and that sense of 
direction and that sense of fairness ultimately will bring 
people's interest up.
    At the same time, there are specific issues like training 
and so forth that I would like to look at more should I be 
confirmed. At this point, I am not prepared to discuss each 
issue, but certainly there are indications that this is an area 
that needs to be looked at more.
    Senator Akaka. Thank you very much. Senator Voinovich.
    Senator Voinovich. Mr. Weizmann, once confirmed you have a 
year and a half or so to accomplish reform before the 
transition to the new Administration. To help guide this 
Committee's work in the future, it seems to me OPM should 
submit a list of reforms to the Committee and the 
Administration that will need to be given continued attention.
    Mr. Weizmann. Right.
    Senator Voinovich. We want to see them continued. It would, 
I think, help Senator Akaka and me to know the areas that need 
to be given continued attention so when the new team is in 
place, we can be part of the process of making sure that some 
of these reforms are carried out. I know that it takes a long 
time for transformation to occur, and I would just hate like 
heck to have, for example, your strategic plan left undone.
    I would also like you to look at the extent to which 
agency-specific and government-wide flexibilities that we have 
legislated are being utilized.
    For instance, agencies have made greater use of student 
loan repayment. Senator Akaka and I have introduced legislation 
to make student loan repayments nontaxable.
    Another topic that Senator Akaka and I are interested in is 
training. When I first came to the Subcommittee, we asked 
agencies how much money they were spending on training, which 
is important to help employees grow in their jobs. I question 
where we are in terms of providing training and what percentage 
of agencies' budgets are being used for training.
    I continue to be interested in the concept of a Chief 
Management Officer. Senator Akaka and I are working on GAO's 
high-risk list, with a focus on DOD supply chain management and 
the security clearance process. Our oversight work has led us 
to question whether these agencies have the capacity to 
continue transformation. Within the Department of Defense, I 
believe we need a Chief Management Officer to be in charge of 
transformation. Absent a strategic plan, the transformation 
will continue to have problems.
    Again, pay-for-performance is important. Senator Akaka and 
I know that the unions don't want it. The biggest experiment in 
pay-for-performance in the Federal Government today is at TSA. 
We must be sure the system, known as PASS, is working well at 
each airport.
    These are some of the concerns that I have, and I really 
hope that you would give some consideration to them.
    Mr. Weizmann. Senator, all your concerns are concerns that 
I share. You asked me earlier about why I wanted to take this 
position. I am very concerned about not specifically my legacy, 
and I am not speaking about Republican or Democrat legacies, 
either. This Committee and this Congress, at least since 1993, 
if not before, has set forth a very direct statement, I think, 
of the kind of Federal service that we would all like to have.
    It is very important to me that in those critical areas you 
identify, whether it is pay-for-performance or whether it is 
just improving the training, that any human resources system be 
like a garden. If you walk away from a garden, it gets 
overgrown tomorrow. You need continuous training of people in 
not only management skills but just skills to do their job 
every day. If you bring people in, including older, more 
experienced workers, as well, and train them, it is important 
that we keep making progress. It is undeniably spotty in 
places, and I think we need more information, and certainly if 
I am confirmed, I would like to know more about why some of 
these things are successful and some are not.
    At the Private Sector Council, we are currently working 
with OMB to look at agencies who have been very successful in 
linking performance to program success, and there are some that 
are more successful than others, and we are trying to set up a 
system by which we can involve the agencies who have been 
successful to talk to the agencies who are struggling with 
those kinds of things to really have that kind of information 
shared.
    Again, should I get to OPM, I would hope that we would be 
able to foster that kind of environment where there is a kind 
of information sharing between successful agencies and those 
agencies that are struggling to make sure the improvement is 
really over the entire Federal Government.
    But the important thing to me, the most important thing is 
not to retreat from some of the good work that has been done by 
this Committee, by Congress, by this Administration, and by 
prior Administrations to making the Federal service a much more 
effective place to be.
    Senator Voinovich. Thank you.
    Senator Akaka. Thank you very much, Senator Voinovich.
    I want to thank you, Mr. Weizmann, for responding so well 
to our questions. I have further questions that I will submit 
for the record, which we will submit to you in writing. The 
hearing record, let me say, will remain open for 1 week for 
Members of this Committee to submit additional statements or 
questions that they may have.
    I want to thank you and your family for being here today. 
Senator Voinovich and I are of the same mind, and we will make 
every effort to move this confirmation process as expeditiously 
as we can here. Then we will have a vote on this in the near 
future, the vote on your nomination and confirmation.
    Do you have any final words?
    Senator Voinovich. No, Mr. Chairman.
    Senator Akaka. With that, again, thank you so much, and I 
wish you well in all that you do.
    Mr. Weizmann. Thank you, Mr. Chairman. Thank you, Senator 
Voinovich.
    Senator Akaka. This hearing is adjourned.
    [Whereupon, at 10:43 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T5530.001

[GRAPHIC] [TIFF OMITTED] T5530.002

[GRAPHIC] [TIFF OMITTED] T5530.003

[GRAPHIC] [TIFF OMITTED] T5530.004

[GRAPHIC] [TIFF OMITTED] T5530.005

[GRAPHIC] [TIFF OMITTED] T5530.006

[GRAPHIC] [TIFF OMITTED] T5530.007

[GRAPHIC] [TIFF OMITTED] T5530.008

[GRAPHIC] [TIFF OMITTED] T5530.009

[GRAPHIC] [TIFF OMITTED] T5530.010

[GRAPHIC] [TIFF OMITTED] T5530.011

[GRAPHIC] [TIFF OMITTED] T5530.012

[GRAPHIC] [TIFF OMITTED] T5530.021

[GRAPHIC] [TIFF OMITTED] T5530.022

[GRAPHIC] [TIFF OMITTED] T5530.023

[GRAPHIC] [TIFF OMITTED] T5530.024

[GRAPHIC] [TIFF OMITTED] T5530.025

[GRAPHIC] [TIFF OMITTED] T5530.026

[GRAPHIC] [TIFF OMITTED] T5530.027

[GRAPHIC] [TIFF OMITTED] T5530.028

[GRAPHIC] [TIFF OMITTED] T5530.029

[GRAPHIC] [TIFF OMITTED] T5530.030

[GRAPHIC] [TIFF OMITTED] T5530.031

[GRAPHIC] [TIFF OMITTED] T5530.032

[GRAPHIC] [TIFF OMITTED] T5530.033

[GRAPHIC] [TIFF OMITTED] T5530.034

[GRAPHIC] [TIFF OMITTED] T5530.035

[GRAPHIC] [TIFF OMITTED] T5530.036

[GRAPHIC] [TIFF OMITTED] T5530.037

[GRAPHIC] [TIFF OMITTED] T5530.038

[GRAPHIC] [TIFF OMITTED] T5530.039

[GRAPHIC] [TIFF OMITTED] T5530.040

[GRAPHIC] [TIFF OMITTED] T5530.041

[GRAPHIC] [TIFF OMITTED] T5530.042

[GRAPHIC] [TIFF OMITTED] T5530.043

[GRAPHIC] [TIFF OMITTED] T5530.044

[GRAPHIC] [TIFF OMITTED] T5530.045

[GRAPHIC] [TIFF OMITTED] T5530.046

[GRAPHIC] [TIFF OMITTED] T5530.047

[GRAPHIC] [TIFF OMITTED] T5530.048

[GRAPHIC] [TIFF OMITTED] T5530.049

[GRAPHIC] [TIFF OMITTED] T5530.050

                                 <all>

</pre></body></html>
